No. 19-863

IN THE

Supreme Court of the United States
AUGUSTO NIZ-CHAVEZ,
Petitioner,
v.
WILLIAM P. BARR, A TTORNEY GENERAL,
Respondent.
On Writ of Certiorari to the United States
Court of Appeals for the Sixth Circuit
BRIEF OF AMERICAN IMMIGRATION
LAWYERS ASSOCIATION, THE AMERICAN
IMMIGRATION COUNCIL AND LEGAL
SERVICES PROVIDERS AS AMICI CURIAE IN
SUPPORT OF PETITIONER

DAVID W. FOSTER
1440 New York Avenue, N.W.
Washington, D.C. 20005
(202) 371-7000
david.foster@probonolaw.com

HOLLY L. HENDERSON-FISHER
Counsel of Record
N ICHOLAS A. ICKOVIC
LUCAS R. GEORGE
JOSEPH I. BEN-MAIMON
One Manhattan West
New York, NY 10036
(212) 735-3000
holly.henderson@probonolaw.com

Attorneys for Amici Curiae

QUESTION PRESENTED
The Attorney General can cancel removal of certain immigrants under 8 U.S.C. §§ 1229b(a) and (b).
To be eligible for cancellation of removal, a non-permanent resident must have ten years of continuous
presence in the United States, and a permanent resident must have seven years of continuous residence.
Id. §§ 1229b(a)(2), (b)(1)(A). Under the “stop-time
rule,” the government can end those periods of continuous residence by serving “a notice to appear under
section 1229(a),” which, in turn, defines “a ‘notice to
appear’” as “written notice . . . specifying” specific information related to the initiation of a removal proceeding. Id. §§ 1229b(d)(1), 1229(a)(1). In Pereira v.
Sessions, 138 S. Ct. 2105, 2117 (2018), this Court held
that only notice “in accordance with” section 1229(a)’s
definition triggers the stop-time rule.
The question presented in this case is:
Whether, to serve notice in accordance with section 1229(a) and trigger the stop-time rule, the government must serve a specific document that includes all
the information identified in section 1229(a), or
whether the government can serve that information
over the course of as many documents and as much
time as it chooses.

ii
TABLE OF CONTENTS
QUESTION PRESENTED ................................................i
INTEREST OF AMICI CURIAE.....................................1
INTRODUCTION AND SUMMARY OF
ARGUMENT............................................................2
ARGUMENT........................................................................7
I.

II.

CONGRESS REQUIRED ONE-STEP
NOTICE TO STREAMLINE REMOVAL
PROCEEDINGS AND ENSURE
FUNDAMENTAL FAIRNESS AND NOTICE
FOR NONCITIZENS .............................................7
A.

The Legal History of IIRIRA Shows
that One-Step Notice Is Required...........7

B.

The Government’s Two-Step Notice
Practice Frustrates Fundamental
Fairness Objectives and Reintroduces
Complexity and Confusion Into the
Notice Requirement ................................ 11

EXPERIENCES OF NONCITIZENS BEAR
OUT THE CONFUSION AND
FUNDAMENTAL FAIRNESS CONCERNS
CREATED BY THE TWO-STEP NOTICE
PRACTICE ............................................................ 15

CONCLUSION................................................................. 23
Appendix: List of Amici .................................................. 1a

iii
TABLE OF AUTHORITIES
Page(s)
CASES
Banuelos v. Barr,
953 F.3d 1176 (10th Cir. 2020) ............................ 9
Matter of Isidro,
25 I&N Dec. 829 (BIA 2012)...............................20
Mullane v. Central Hanover Bank & Trust Co.,
339 U.S. 306, 314 (1950) ....................... 13, 16, 21
Ortiz-Santiago v. Barr,
924 F.3d 956 (7th Cir. 2019) ................................ 9
Pereira v. Sessions,
138 S. Ct. 2105 (2018)................................. passim
STATUTES
8 U.S.C. § 1229(a)(1) ............................................. i, 4, 7, 8
8 U.S.C. § 1229(a)(1)(G)(i) ..............................................11
8 U.S.C. § 1229a(b)(5)(C)(ii) ...........................................11

iv
8 U.S.C. § 1229b(a)(2) .................................................... i, 7
8 U.S.C. § 1229b(b)(1) ........................................................ 7
8 U.S.C. § 1229b(b)(1)(A) ................................................... i
8 U.S.C. § 1229b(d)(1) ................................................ i, 7, 8
Illegal Immigration Reform and Immigrant
Responsibility Act of 1996 (IIRIRA),
Pub. L. No. 104-208, Div. C, 110 Stat.
3009-546 ........................................................ passim
REGULATIONS
62 Fed. Reg. 444 (proposed Jan. 3, 1997)
(codified at various parts of 8 C.F.R.) ................ 4
OTHER AUTHORITIES
Asylum Seeker Advocacy Project & Catholic
Legal Immigration Network Inc., Denied
a Day in Court: The Government’s Use of
In Absentia Removal Orders Against
Families Seeking Asylum ....................................21

v
Catherine E. Shoichet, et al., New wave of ‘fake
dates’ cause chaos in immigration courts
Thursday, CNN (Jan. 31, 2019),
https://www.cnn.com/2019/01/31/politics/immigration-court-fake-dates/index.html ........................................................... 16, 17
Dianne Solis, ICE is ordering immigrants to
appear in court, but the judges aren’t
expecting them, Dallas Morning News,
(Sept. 16, 2018),
https://www.dallasnews.com/news/immi
gration/2018/09/16/ice-is-orderingimmigrants-to-appear-in-court-but-thejudges-arent-expecting-them/ ............................17
H.R. Rep. 104-469(I), 1996 WL 168955 ............9, 10, 11
Monique O. Madan, Fake court dates are being
issued in immigration court. Here’s why,
Miami Herald (Sept. 18, 2019),
https://www.miamiherald.com/news/local/immigration/article234396892.html ... 16, 17
Providing for Consideration of H.R. 2202, Immigration in the National Interest Act of
1995,
142 Cong. Rec. 38 (1996) ....................................... 9
Removal of Criminal and Illegal Aliens: Hearing Before the Subcomm. on Immigration and Claims, 104th Cong. 1 (1995) .............. 9

INTEREST OF AMICI CURIAE
Amici Curiae are nonprofit organizations established to serve immigrants, many of whom have experienced challenges arising from the government’s twostep notice practices related to removal proceedings,
to increase public understanding of immigration law
and policy, to advocate for the just and fair administration of immigration laws, and to protect the legal
rights of noncitizens. Amici represent and advocate
for the legal rights of tens of thousands of applicants
seeking protection and relief under the immigration
laws of the United States. Amici have a strong interest in ensuring that these applicants receive fair and
effective notice of the time and place of their removal
proceedings so that they are able to adequately defend
themselves at those proceedings. Amici have a further
interest in ensuring that the United States government lives up to its statutory notice obligations in administering removal proceedings, particularly in circumstances where the consequences are so severe, including deportation. Amici believe their extensive experience working within the immigration system will
help the Court in considering this case.
Additional information about Amici may be
found in the Appendix. Many of the narratives in this
brief involve individuals affiliated with Amici’s organizations.1
Pursuant to Supreme Court Rule 37.6, counsel for Amici
represents that it authored this brief in its entirety and
that none of the parties or their counsel, nor any other
person or entity other than Amici or their counsel, made a
monetary contribution intended to fund the preparation or
1

(cont’d)

2
INTRODUCTION AND
SUMMARY OF ARGUMENT
The United States immigration system is burdened by inefficiency and an increasingly byzantine
set of procedures. In 1996, Congress sought to streamline and simplify one aspect of the system—the removal process—by, among other things, requiring the
government to provide noncitizens with a single notice
containing certain relevant information, including the
date and time of their forthcoming removal hearing.
But despite its efforts, Congress’s attempt at improvement has been stymied. Refusing to adhere to Congress’s commands, the government has instituted a
different practice, involving multiple notices doled out
over an indefinite time-frame, thereby introducing unnecessary inefficiency and complexity into the system—the very issues that Congress sought to mitigate.
The end result has been a removal process plagued by
increasing delays and wrongful removals.
The government’s refusal to comply with the
statute as written has had disastrous consequences for
noncitizens, including those seeking a discretionary
form of relief known as cancellation of removal. After
ten years of continuous physical presence in the
United States (or seven years of continues residence
in the case of permanent residents), as well as compliance with other stringent requirements, a nonpermanent resident may be eligible for cancellation of
submission of this brief. Timely notice under Rule 37.2(a)
of intent to file this brief was provided to the Petitioner and
the Respondent, and both have consented in writing to the
filing of this brief.

3
removal, a form of relief available to only the most deserving noncitizens. Critically, the accrual of that
seven- or ten-year period may be “stopped” by the government’s issuance of a “notice to appear.” Noncitizens ability to even apply for this critical form of discretionary relief often hinges on whether they can
meet the required periods of continuous physical presence or residence in the United States.
The case at bar hinges upon what qualifies as a
“notice to appear” under the Illegal Immigration Reform and Immigrant Responsibility Act of 1996
(IIRIRA), Pub. L. No. 104-208, Div. C, 110 Stat. 3009546. With IIRIRA, Congress mandated that noncitizens who are subject to removal proceedings must be
given one “notice to appear” containing certain critical
information, including the time and place at which
their removal proceedings will be held. When amending the statutory scheme, Congress intentionally replaced legislation authorizing a two-step notice process, which allowed for time-and-place information to
be provided at a later time in a separate document.
Congress had clear reasons for this: a two-step notice
process created serious and endemic fairness concerns,
on the one hand, and a confusing, complicated and inefficient process, on the other. The one-step notice
that Congress prescribed through 8 U.S.C. § 1229(a)
was meant to correct these shortcomings. It would
ameliorate notice and fairness concerns for noncitizens and promote efficiency in removal proceedings.
In Niz-Chavez, the Board of Immigration Appeals (“BIA”) rejected this straightforward interpretation of the statute. (Pet. App. 22a.) Instead, the
agency interpreted section 1229(a) as allowing a

4
collection of documents to be served on a noncitizen,
over an unspecific span of time, rather than just one
“notice to appear” containing all the statutorily required information. (Id.) Taken together, the BIA
surmised, those combined documents satisfy the statutory mandate of section 1229(a). (Id.) The Sixth Circuit below adopted the Board’s position, holding that
multiple notices doled out at the government’s convenience may constitute “a” notice to appear under the
statute. (Id. 13a-15a.) That decision is patently incorrect. Amici write to this Court to emphasize three
points.
First, the text, structure, history, and purpose
of IIRIRA unequivocally confirm that a single notice
to appear is required. Congress expressly mandated
“a ‘notice to appear’”—not an incomplete placeholder
notice supplemented by a later notice of hearing or
amended notice to appear. 8 U.S.C. § 1229(a)(1). Congress recognized the morass a two-step process creates
and sought to ensure expeditious but fair removal proceedings by, among other things, requiring a single notice that includes time-and-place information. And in
fact, the government has itself recognized this onestep requirement in post-IIRIRA rulemaking. See 62
Fed. Reg. 444, 449 (proposed Jan. 3, 1997) (codified at
various parts of 8 C.F.R.).
Second, the two-step notice practice promotes
unfairness and inefficiency and reintroduces complexity into the removal process. The government’s insistence on this practice—and its outright refusal to comply with the statutory mandate—frustrates Congressional intent and raises fundamental fairness concerns that are particularly acute in the context of removal, which is often the only form of relief that can

5
keep immigrant families together. Moreover, the
practice ignores the confusion and systemic inefficiency that results from failing to provide time-andplace information in the notice to appear, a point this
Court has recognized. See Pereira v. Sessions, 138 S.
Ct. 2105, 2119 (2018). The solution here requires no
creative, uncertain or novel approach—instead, it
merely requires implementing the one-step notice
Congress has already legislated. The risks to noncitizens are dire, the alternative clear, and the burden on
the government negligible—and indeed, this Court
has already considered and rejected the government’s
argument that providing time-and-place information
is too burdensome. Id. at 2118-2119.
Third, Amici write to provide case examples
that illustrate how the government’s two-step notice
practice distorts the Congressional scheme and undermines fundamental fairness. These examples show
how the U.S. Department of Homeland Security’s
(“DHS”) use of fake dates for removal hearings as a
solution to this Court’s mandate in Pereira has bred
chaos and confusion in the immigration system and
led to significant noncitizen expenditures in traveling
to and preparing for nonexistent proceedings, including by obtaining counsel. These cases also demonstrate the effects of long delays between the original
incomplete notice document and the subsequent notice
of hearing. The two-step notice process can take years
to complete. Dolling out critical information over such
a protracted timeframe unnecessarily elevates the
risk that noncitizens will not receive time-and-place
information since many lack permanent mailing addresses and stable living arrangements. Finally, case
examples show that the two-step notice process generates high numbers of in absentia removal orders,

6
highlighting how the two-step notice process ultimately may result in no notice at all. Piecemeal notice
practices mean that notices are often (1) sent to different, incorrect addresses; (2) received only after the
hearing has occurred; or (3) contain incorrect dates or
locations, including hearings scheduled earlier than
noticed. The government’s persistent refusal to comply with Congress’s directive inflicts severe consequences indiscriminately. This is patently inefficient
and intolerable as a matter of fundamental fairness.

7
ARGUMENT
I.

CONGRESS REQUIRED ONE-STEP
NOTICE TO STREAMLINE REMOVAL
PROCEEDINGS AND ENSURE
FUNDAMENTAL FAIRNESS AND NOTICE
FOR NONCITIZENS
A.

The Legal History of IIRIRA Shows
that One-Step Notice Is Required

Under the Immigration and Nationality Act of
1965 (“INA”), as subsequently amended, certain
noncitizens facing removal from the United States
may seek cancellation of their removal order if, immediately prior to removal proceedings, they have lived
in the United States for a continuous seven or ten-year
period. See 8 U. S. C. §§ 1229b(a)(2) and (b)(1). Where
a noncitizen meets the relevant physical presence or
residency requirement, among other statutory criteria,
the Attorney General has discretion to “cancel removal”
and, in the case of non-legal permanent residents, adjust the individual’s immigration status. Under the
statute’s stop-time rule, the noncitizen’s period of
physical presence or continuous residence ends on,
among other things, service of a “notice to appear under section 1229(a).” Id. § 1229b(d)(1).
Section 1229(a) defines “a ‘notice to appear’” as
a “written notice . . . specifying” certain information,
including the “time and place at which the proceedings
will be held.” Id. § 1229(a)(1). When a noncitizen receives a statutorily compliant notice to appear, it terminates his period of continuous physical presence or
residence for purposes of cancellation of removal.

8
The text of section 1229b(d)(1) is clear: the government can only effectively trigger the stop-time rule
by serving “a notice to appear under section 1229(a).”
Id. § 1229b(d)(1). And section 1229(a) defines “a ‘notice to appear’” as a document that “shall” contain
every piece of information Congress deemed relevant
to the initiation of removal proceedings, including the
“time and place at which the proceedings will be held.”
Id. § 1229(a)(1); (see also Br. of Pet. Niz-Chavez 24-27).
A document that does not inform a noncitizen of the
“time and place at which the proceedings will be held”
is not a “notice to appear under section 1229(a).” It
cannot be, since it fails to convey the very information
a noncitizen needs to “appear”—namely, essential details on when and where they need to appear.
In addition to the statutory text, the one-step
notice requirement is further supported by the statute’s history and purpose. Pre-IIRIRA, the government already employed a two-step notice practice under which a notice of the “time and place of proceedings” would issue separately from an initial “order to
show cause.” (See Br. of Pet. Niz-Chavez 10-12 (“Consistent with the [Pre-IIRIRA] statute’s flexibility regarding time-and-place information, INS retained its
regulations specifying that such information would be
separately provided by the immigration court.”).)
The 1996 enactment of IIRIRA replaced the previously-sanctioned two-step notice process with a single document: the “notice to appear.” The amended
statute required that the “time and place at which the
proceedings will be held” be included in the single notice to appear. Id. § 1229(a)(1). Indeed, this was the
only change made in an otherwise identical section.
(See Br. of Pet. Niz-Chavez 37.)
Courts have

9
recognized this historical change in the statutory
scheme. See Ortiz-Santiago v. Barr, 924 F.3d 956, 962
(7th Cir. 2019); see also Banuelos v. Barr, 953 F.3d
1176, 1182 (10th Cir. 2020). “The government [likewise] immediately recognized that IIRIRA required it
to provide a specific document—‘a “notice to appear”’—that included . . . time-and-place information.”
(See Br. of Pet. Niz-Chavez 13-14.)
The legislative history of IIRIRA also evidences
Congress’s concern with unnecessary complexity in
the notice process. By enacting IIRIRA, Congress intended to streamline and simplify removal proceedings. See, e.g., H.R. Rep. 104-469(I), 1996 WL 168955
at *157 (describing reform of removal procedures as
“streamlin[ing] rules and procedures . . . to make it
easier to deny admission to inadmissible aliens and
easier to remove deportable aliens”).
IIRIRA also aimed to reduce administrative inefficiency and delay. During a hearing concerning potential reforms, Representative Lamar Smith voiced
the need to “encourage changes that need to be made
at the INS and EOIR to make our removal system
credible” and “look at legislative reforms to streamline
the removal process.” Removal of Criminal and Illegal
Aliens: Hearing Before the Subcomm. on Immigration
and Claims, 104th Cong. 1, 3 (1995) (statement of
Chairman Lamar Smith); see also Providing for Consideration of H.R. 2202, Immigration in the National
Interest Act of 1995, 142 Cong. Rec. 38, H2374 (1996)
(statement of Rep. Dreier) (stressing the need to
“[s]treamline [the] deportation process to reduce time
to process cases”).
In order to address these concerns, Congress replaced the preexisting dual-notice system with a

10
single notice to appear. The House Judiciary Committee Report described the proposed legislative reforms
as follows: “[Section 1229] also will simplify procedures for initiating removal proceedings against an alien. There will be a single form of notice . . . .”
H.R. Rep. 104-469(I), 1996 WL 168955 at *159 (emphasis added). Congress’s concern over procedural delays thus motivated its choice to require single-document notice.
But notice and fairness concerns also animated
Congress’s decision to eliminate the two-step notice
process. As a report of the Judiciary Committee of the
House of Representatives explained, IIRIRA was designed to address “lapses (perceived or genuine) in the
procedures for notifying aliens of deportation proceedings [which have led] some immigration judges to decline to exercise their authority to order an alien deported in absentia.” H.R. Rep. 104-469(I), 1996 WL
168955 at *122. Such lapses were caused, at least in
part, by the pre-IIRIRA piecemeal notice system.
Section 1229(a)’s enactment directly combatted
Congressional concerns about procedural lapses in the
removal process caused by a dysfunctional two-step
notice system. See H.R. Rep. 104-469(I), 1996 WL
168955 at *159 (“[T]here often are protracted disputes
concerning whether an alien has been provided proper
notice[, which] impairs the ability of the government
to secure in absentia deportation orders.”). While Congress clearly sought to avoid delay, it also sought to
ensure notice and fundamental fairness in removal
proceedings. For example, the consequences of failing
to appear at removal proceedings were intentionally
made severe under IIRIRA to prevent noncitizens
from “reopen[ing] their hearings on the grounds that

11
they never received proper notice.” H.R. Rep. 104469(I), 1996 WL 168955 at *159. However, IIRIRA
counterbalanced this severity with certain procedural
safeguards. Thus, a noncitizen may seek to rescind an
in absentia removal order if they never received notice
under section 1229(a).
See id.; 8 U.S.C.
§ 1229a(b)(5)(C)(ii). That notice must include the
“time and place at which the [removal] proceedings
will be held.” 8 U.S.C. § 1229(a)(1)(G)(i); accord Pereira, 138 S. Ct. at 2111. The one-step notice rule thus
ensures that noncitizens receive proper notice of their
removal proceedings, affording them an opportunity to
be heard.
Despite this history and overarching purpose,
the Government continues to ignore the statute and
Pereira, upsetting the delicate balance Congress
struck between notice, process, and fairness, on the
one hand, and streamlined, efficient removal proceedings, on the other.
B.

The Government’s Two-Step Notice
Practice Frustrates Fundamental
Fairness Objectives and
Reintroduces Complexity and
Confusion Into the Notice
Requirement

The government’s atextual two-step notice
practice fails to reliably notify noncitizens of the time
and place of their removal proceedings, hampering
their ability to engage with—or even appear at—those
proceedings. In this way, the two-step process puts at
risk the most basic precepts of any adjudicative system: notice, fairness, and process. These shortcomings are all the more pronounced given the specific
challenges facing the immigrant communities to

12
which the notices are directed. They are often unfamiliar with the U.S. legal system, which can be difficult for trained professionals to navigate—let alone recent immigrants with limited English language skills
and uncertain access to legal counsel or other resources.2 Given these challenges, Congress designed
a system that mandates straightforward notice of
when and where removal proceedings will take place.
After all, as this Court observed in Pereira, it would
“‘confuse and confound’ noncitizens” to allow “the Government to serve notices that lack any information
about the time and place of the removal proceedings.”
138 S. Ct. at 2119 (citation omitted).
But that is precisely what the government continues to do. Defying Congress, the government’s twostep notice practice ensures noncitizens will wait
weeks, months, or even years for the most critical
piece of information they need to defend themselves
from removal—the time and place of their hearing.
This two-step process serves to keep noncitizens in a
state of limbo and elevates the risk that noncitizens
will never receive the requisite notice. Common sense
supports the view that the greater the lag-time between when a noncitizen is ordered to appear for proceedings and when that same individual is informed
when and where to appear, the less likely the
Furthermore, many immigrants have escaped horrific
conditions, abuse, or oppression in their home countries
and carry the lasting scars of those experiences. For these
individuals, who might be dealing on a daily basis with
physical disabilities or emotional trauma, navigating our
complex immigration bureaucracy becomes all the more
difficult.
2

13
noncitizen is to receive the critical time-and-place information needed to appear at their hearing and present a defense. Providing a noncitizen with this critical information in piecemeal fashion unnecessarily
amplifies the risk that the time-and-place information
will not be received, even where a noncitizen diligently
notifies the government of a change in address, as illustrated in Section II, below. Fundamental fairness
requires DHS to provide an initial time and place for
a noncitizen’s hearing in the notice to appear, as Congress mandated.
At bottom, the government’s refusal to implement the one-step notice process required by Congress
has resulted in serious concerns regarding fundamental fairness and sufficient notice. As this Court has
held, “[a]n elementary and fundamental requirement
of due process . . . is notice reasonably calculated, under all the circumstances, to apprise interested parties
of the pendency of the action and afford them an opportunity to present their objections.” Mullane v. Cent.
Hanover Bank & Tr. Co., 339 U.S. 306, 314 (1950).
The government’s two-step practice has resulted in
DHS consciously misinforming noncitizens about the
time and place of their removal proceedings, requiring
this already vulnerable population to expend significant time, energy, and valuable resources to follow the
government’s instructions and appear in immigration
court at “fake” dates and times. And it has impeded
the ability of noncitizens to adequately defend themselves in their removal proceedings. “But when notice
is a person’s due, process which is a mere gesture is
not due process.” Id. 339 at 315. Intentionally inaccurate notice certainly is not “reasonably calculated”
to provide notice and cannot comport with the

14
intrinsic values of fundamental fairness and due process in removal proceedings.
Under the statutory scheme, Congress paired a
rigid substantive notice requirement with harsh penalties for non-appearance. In refusing to adopt the
one-step notice process envisaged and required by
Congress, the government upsets that careful balance,
creating an untenably high risk that noncitizens will
never learn when and where their removal proceedings are to occur, leaving them unable to mount any
defense against their removal. Those cases lead to one
of the harshest results available in our immigration
system—an in absentia removal order without any
consideration of the merits of the noncitizen’s case.
The stakes are clear. Removal proceedings determine a noncitizen’s ability to remain in the United
States and access certain forms of discretionary relief.
Often, they decide whether a noncitizen may continue
to live with or near close family. At bottom, removal
proceedings impact the life that a noncitizen has built
and her ability to continue that life. The risk is especially significant for those noncitizens eligible for cancellation of removal—they have by definition built a
life in the United States for many years.
There is no valid reason, by contrast, for maintaining the flawed two-step notice system already rejected by Congress. As discussed on pp. 8-9, supra, in
passing IIRIRA, Congress directed the government to
replace a problematic two-step system with a streamlined and effective one-step notice process. This Court
has already explicitly rejected the government’s argument that it is too burdensome to include time-andplace information in a notice to appear, stating,
“[g]iven today’s advanced software capabilities, it is

15
hard to imagine why DHS and immigration courts
could not again work together to schedule hearings before sending notices to appear.” Pereira, 138 S. Ct. at
2119.
As the following real-world stories demonstrate,
the current two-step notice practice has already led
to concerns regarding fundamental fairness and adequate notice. It will continue to do so if left unchecked.
But, as demonstrated below, these risks would be virtually eliminated by adopting the one-step notice system envisaged and required by Congress.
II. EXPERIENCES OF NONCITIZENS BEAR
OUT THE CONFUSION AND
FUNDAMENTAL FAIRNESS CONCERNS
CREATED BY THE TWO-STEP NOTICE
PRACTICE
The fundamental fairness concerns inherent in
the two-step notice practice are borne out in a number
of harmful ways for noncitizens in removal proceedings.
The first is the misleading practice of issuing
notices to appear with fake dates and times. These
fake dates, which are sometimes scheduled for the
middle of the night or on the weekend, represent
DHS’s bad faith attempt to comply with Pereira. The
result has been chaos for noncitizens as well as court
staff, who find themselves overwhelmed with an influx
of respondents who were not supposed to be at the
court. Moreover, long delays between the issuance of
the initial placeholder notice to appear and the later
hearing notice further exacerbate the initial notice's
insufficiency. Finally, the government’s two-step notice practice heightens the risk that noncitizens will

16
miss their actual hearings and be removed in absentia,
simply because the government failed to provide adequate notice as required by law or, worse still, provides
inaccurate or deceptive notice. “Many controversies
have raged about the cryptic and abstract words of the
Due Process Clause but there can be no doubt that at
a minimum they require . . . notice and opportunity
for hearing appropriate to the nature of the case.”
Mullane, 339 U.S. at 313.
Consider the following case examples.
In the weeks following Pereira, DHS began issuing notices containing fake hearing dates and
times—meaning that the dates and times provided in
the notices were inaccurate and the hearing contained
in the notice was either scheduled for a different date
and time or had not been scheduled altogether. In
some instances, hearings were scheduled for dates and
times when the courthouses were not even open. See
Catherine E. Shoichet, et al., New wave of ‘fake dates’
cause chaos in immigration courts Thursday, CNN
(Jan. 31, 2019), https://www.cnn.com/2019/01/31/poli tics/immigration-court-fake-dates/index.html.
The
fake date notices illustrate the fundamental unfairness of the government’s preferred approach to notice
and its deceptive attempts to comply with the Court’s
dictates in Pereira.
Recognizing the severe consequences of non-appearance, supra at p. 14, in 2019 noncitizens travelled
to courthouses throughout the United States for their
presumed hearings after receiving notices to appear.
See Monique O. Madan, Fake court dates are being issued in immigration court. Here’s why, Miami Herald
(Sept.
18,
2019),

17
https://www.miamiherald.com/news/local/immigration/article234396892.html. On arrival, they discovered the truth—they had no hearing that day. See
Shoichet et al., supra at p. 16. The noncitizens who
were misled into attendance expended considerable
resources travelling, obtaining counsel, and waiting in
line at the courthouses. See Madan. Even more troubling, many individuals left these “fake” date hearings
without any notice of when their actual removal hearings would proceed. See Dianne Solis, ICE is ordering
immigrants to appear in court, but the judges aren’t
expecting them, Dallas Morning News, (Sept. 16, 2018),
https://www.dallasnews.com/news/immigration/2018/09/16/ice-is-ordering-immigrants-to-appearin-court-but-the-judges-arent-expecting-them/. Thousands of noncitizens have been affected by fake dates.
For example, in one case, a client was issued a
notice to appear dated January 27, 2019, for a hearing
at the Denver Immigration Court at 12:00 p.m. on
March 15, 2019.3 The client’s attorney was rightfully
skeptical of the hearing notice because, in the attorney’s experience, the Denver Immigration Court is
closed between the hours of 12:00 p.m. and 1:00 p.m.
The attorney attempted to verify the time and date of
the hearing by calling the clerk of the court, who confirmed that the hearing was not in the court’s system.
Nevertheless, because of the severe consequences for
failing to appear, the attorney advised the client to attend the hearing. The client lived across the Rocky
Mountains and drove five hours through a blizzard to
the Denver Immigration Court. When the client and
Attorney declarations supporting the client stories represented here are on file with Counsel of Record for Amici.
3

18
attorney appeared at the hearing on the provided date
and time, they were informed by the clerk that the
case was not in the system and that the hearing would
not take place. The case was classified as a “failure to
prosecute” and the clerk was unable to provide any
documentation regarding the client’s attempt to attend the court hearing. The client remains fearful
that DHS will re-initiate removal efforts. The client
has abstained from travelling to Mexico—even to visit
sick family members—because of fears that the case is
in “limbo.”
Another client of the same attorney received a
notice to appear for a hearing at the Denver Immigration Court on July 24, 2019, at 1:00 a.m. Despite the
clearly implausible time of appearance, the attorney
attempted to confirm the hearing with the Executive
Office for Immigration Review’s (“EOIR”) 1-800 number. Not surprisingly, the attorney discovered that the
hearing was not in the court system. The client later
received a notice of hearing with a different hearing
date and time. This client had an attorney who knew
how to confirm the information provided in the notice
to appear with EOIR’s 1-800 number and who could
explain the subsequently issued notice of hearing. But,
for the many noncitizens without legal representation,
these fake date notices to appear logically create substantial confusion and distress.
Additional examples from another attorney confirm that many noncitizens have travelled several
hours for hearings that were never going to take place.
One client received a notice to appear for a hearing on August 2, 2019. When the attorney followed-up
with the EOIR’s 1-800 number, she was provided with
a different date for the hearing, which she then

19
confirmed with the court. But when the client met
with U.S. Immigration and Customs Enforcement
(“ICE”) officers for a routine check-in, an officer insisted that the client show up on the original date provided in the notice to appear (despite it conflicting
with the date provided by the 1-800 number and the
court). According to the attorney, “[t]he ICE officer intimidated and threatened [the] client that if she did
not attend, she would receive a removal order for not
showing up [to the hearing].”
In another example, a client received a hearing
notice scheduled for midnight. When the attorney and
the client followed up with an ICE officer, they were
told that the time was a “typo” and the hearing was at
noon rather than midnight. But when the attorney
checked the EOIR’s 1-800 number, EOIR confirmed
the original midnight hearing time, contradicting the
officer.
These stories highlight fundamental fairness
concerns inherent in the two-step notice practice, particularly where the government acts in bad faith in issuing initial notices. Because of the fake dates, noncitizens have been obstructed from attending their hearings and defending themselves before a judge—two
fundamental aspects of due process and fair proceedings.
The two-step notice practice often involves a
long and harmful delay between the issuance of the
initial, incomplete notice to appear and the subsequent notice providing date-and-time information.
The delay can be months or even years long. Worse
still, in some instances, the incomplete notices to appear are never filed with the immigration court at all.
Noncitizens who experience long delays between the

20
issuance of the notices are more likely to miss their
hearings, be detained for inordinate periods of time, or
find themselves in an unsettling state of limbo.
For example, another attorney’s client was issued a notice to appear for a hearing at the Chicago
Immigration Court at 8:00 a.m. on July 23, 2019. The
client’s attorney suspected that the notice to appear
contained a fake date and time because hearings at
the Chicago Immigration Court do not begin until 9:00
a.m. When the attorney and client appeared at the
courthouse on the provided hearing date, they were
notified that “the date was not real” and that a different hearing notice would be sent. One year later, the
client still has not received a new notice to appear.
The client has been in great emotional distress over
the uncertainty of when she will be reissued a notice
to appear and possibly be removed from the United
States.
Two other clients—a husband and wife—received notices to appear with a court date of August
14, 2019, at 1:00 p.m. When the attorney arrived at
court with the clients, they were not on a master
docket and were informed by the court that the case
was not yet in the system. Nearly one year later, the
clients received new notices. Their uncertain status
has caused them significant distress—especially the
husband, who is in the early stages of dementia.
Additionally, when proceedings are significantly delayed, noncitizen children who are qualifying
relatives for cancellation of removal can age out because they have turned 21, losing their eligibility for
relief. See Matter of Isidro, 25 I&N Dec. 829 (BIA
2012).

21
Yet another harmful consequence of the twostep notice practice is an increase in the risk of in absentia removal of noncitizens. The ability of noncitizens to attend hearings and avoid in absentia removal
is directly dependent on the reliable delivery of timeand-place information. But the two-step notice process increases the likelihood that noncitizens will not
receive sufficient notice at all, undermining the INA’s
clear mandate that such notice is required before cutting off an individual’s accrual of time for cancellation
of removal relief, and resulting in the harshest consequence of lack of notice: an in absentia removal order.
In recognizing that “the opportunity to be heard”
is a “fundamental requisite of due process of law,” this
Court found that the “right to be heard has little reality or worth unless one is informed that the matter is
pending and can choose for himself whether to appear or default, acquiesce or contest.” Mullane, 339
U.S at 314 (quoting Grannis v. Ordean, 234 U.S. 385,
394 (1914)) (emphasis added). In many cases, noncitizens received in absentia orders because they never
received a subsequent hearing notice or their hearing
notice contained incorrect hearing information—an
inherent byproduct of the two-step notice process. See
Asylum Seeker Advocacy Project & Catholic Legal Immigration Network Inc., Denied a Day in Court: The
Government’s Use of In Absentia Removal Orders
Against Families Seeking Asylum 16.
Consider Adriana, who managed to receive a
subsequent hearing notice on time (after receiving an
incomplete notice to appear)—but whose notice provided the wrong hearing date, causing her to miss her
hearing. Adriana received the later-issued hearing
notice on June 10, 2015 listing a July 2016 hearing

22
date. When she scheduled a consultation with an attorney in January 2016, six months before her presumed hearing date, Adriana was informed by the attorney that the notice she received included an incorrect date and that her hearing had already been held
in August 2015. Because Adriana did not attend her
hearing, an in absentia removal order was entered
against her.
Paula, a Guatemalan citizen, received an initial
notice to appear with no time-and-place information,
but then received a notice of hearing at her mailing
address too late. After checking her mail on a regular
basis for months, Paula received two pieces of mail in
one day—a notice for an immigration hearing with a
date that had already passed, and an in absentia removal order. Paula’s story underscores the disfunction of a two-step notice practice, which divorces the
notice to appear from the critical time-and-place information a noncitizen needs to actually learn of—and
appear at—their removal proceedings.
Sofia’s story also highlights the fundamental
fairness concerns that arise under the government’s
two-step notice process. Sofia provided ICE with her
mailing address after receiving a placeholder notice to
appear without time-and-place information. But Sofia
never received any subsequent hearing notices at the
address she provided. When Sofia checked in with
ICE, she discovered that she had missed her hearing
and an immigration judge had ordered her removal in
absentia. The failure to include time-and-place information on the initial notice to appear unnecessarily
elevates the risk that the later-sent notice of hearing
will never be received, particularly where a long span
of time separates the two documents.

23
Ultimately, the government’s two-step notice
practice is deeply flawed and creates endemic issues of
unfairness, lack of notice, and denial of process. And
it is directly at odds with Congress’s overarching intent in simplifying an arcane and complex notice process. The government’s atextual approach does nothing to serve Congressional intent, but instead subverts
it, threatening core legal values in the process. By
flatly refusing to comply with Congress’s mandate, the
government reintroduces complexity and confusion
into removal proceedings—with harmful results for
noncitizens and the courts. In the context of cancellation of removal, that unfairness is particularly acute.
The system penalizes deserving immigrants for the
government’s delay in scheduling removal proceedings and its own failure to provide the unified,
adequate notice required by the statute—and it does
so by stopping the accrual of their time of physical
presence or continuous residence based on inadequate
notice. The consequence is in complete disregard for
Congress’s clear directive. If the government were to
follow the plain command of the statute, that in and of
itself would expedite the removal process while also
ensuring fundamental fairness and notice for noncitizens.
CONCLUSION
For the foregoing reasons, and those stated in
Petitioner’s Brief, Amici respectfully urge this Court
to reverse the decision of the Court of Appeals for the
Sixth Circuit.
Respectfully submitted,

24

DAVID W. FOSTER
1440 New York Avenue,
N.W.
Washington, D.C. 20005
(202) 371-7000
david.foster@probonolaw.com

HOLLY L. HENDERSON FISHER
Counsel of Record
NICHOLAS A. I CKOVIC
LUCAS R. GEORGE
JOSEPH I. B EN-MAIMON
One Manhattan West
New York, NY 10036
(212) 735-3000
holly.henderson@probonolaw.com
Attorneys for Amici
Curiae

August 13, 2020

APPENDIX

1a
Appendix
List of Amici
American Immigration Council (“the Council”) is a non-profit organization established to increase public understanding of immigration law and
policy, advocate for the just and fair administration
of our immigration laws, protect the legal rights of
noncitizens, and educate the public about the enduring contributions of America’s immigrants. The
Council frequently appears before federal courts on
issues relating to the due process rights of noncitizens and the interpretation of the Immigration and
Nationality Act.
American Immigration Lawyers Association
(“AILA”) is a national association with more than
13,000 members throughout the United States, including lawyers and law school professors who practice and teach in the field of immigration and nationality law. AILA seeks to advance the administration
of law pertaining to immigration, nationality, and
naturalization; to cultivate the jurisprudence
of the immigration laws; and to facilitate the administration of justice and elevate the standard of integrity, honor, and courtesy of those appearing in a representative capacity in immigration and naturalization matters. AILA’s members practice regularly before the Department of Homeland Security,
immigration courts, and the Board of Immigration
Appeals, as well as before the United States
District Courts, Courts of Appeals, and this Court.

2a
Americans for Immigrant Justice (“AI Justice”) is a non-profit law firm dedicated to promoting and protecting the basic rights of immigrants.
Since its founding in 1996, AI Justice has served
over 140,000 immigrants from all over the world. AI
Justice clients include unaccompanied immigrant
children; survivors of domestic violence, sexual assault, and human trafficking and their children; immigrants who are detained and facing removal proceedings; as well as immigrants seeking assistance
with legal permanent residence, asylum and citizenship. In Florida and on the national level, AI Justice
champions the rights of immigrants; serves as a
watchdog on immigration detention practices and
policies; and speaks for immigrant groups that have
particular and compelling claims to justice. AI Justice’s extensive experience with clients who it directly represents in immigration matters would be
instructive to the Court’s consideration of this significant issue.
Asylum Seeker Advocacy Project (ASAP) sees a
future where the United States welcomes individuals who come to our borders fleeing violence. ASAP
has worked with asylum seekers in over 40 states to
achieve this vision. ASAP provides its membership
with online community support and emergency legal
aid, and provides technical assistance to attorneys
representing asylum seekers across the country.
Capital Area Immigrant’s Rights Coalition
(CAIR Coalition) is the only nonprofit, legal services organization dedicated to providing legal services to immigrant adults and children detained and
facing removal proceedings throughout Virginia and

3a
Maryland. CAIR Coalition strives to ensure equal
justice for all immigrants at risk of detention and
deportation in the Fourth Circuit and beyond
through know your rights presentations, pro se assistance, direct legal representation, impact and advocacy work, and the training of attorneys representing immigrants. CAIR Coalition also secures
pro bono legal counsel and provides in-house pro
bono representation for detained adults and children. CAIR Coalition has a strong interest in ensuring that immigrants, especially those without counsel, receive adequate and proper notice.
Florence Immigrant and Refugee Rights Project Lawyers for Civil Rights (“Florence
Project”) provides free legal and social services to
immigrant men, women, and children detained in
immigration custody in Arizona. The Florence Project believes that all people facing deportation
should have access to counsel, understand their
rights under the law, and be treated fairly and humanely. Annually, the Florence Projects provides
free legal and social services to over 10,000 non-citizens facing removal in Arizona. The Florence Project is one of a network of organizations across the
country providing free legal information to detained
men and women and unaccompanied minors in removal proceedings who do not have attorneys, many
of whom may be eligible for cancellation of removal.
National Immigration Project of the National
Lawyers Guild (NIP-NLG) is a non-profit membership organization of immigration attorneys, legal
workers, grassroots advocates, and others working
to defend immigrants’ rights and to secure a fair

4a
administration of the immigration and nationality
laws. It has a direct interest in assuring that the
rules governing removal proceedings comport with
due process.
Northwest Immigrant Rights Project (NWIRP)
is a non-profit legal organization dedicated to the defense and advancement of the legal rights of noncitizens in the United States with respect to their immigrant status. NWIRP provides direct representation to low-income immigrants placed in removal
proceedings.
Lawyers for Civil Rights (LCR) is a non-profit,
non-partisan organization that fosters equal opportunity and fights discrimination on behalf of people
of color and immigrants. LCR engages in creative
and courageous legal action, education, and advocacy in collaboration with law firms and community
partners. LCR handles major law reform cases as
well as legal actions on behalf of individuals. LCR
has a long history of advocating on behalf of immigrant communities, and is particularly concerned
with ensuring due process rights are upheld for noncitizens. LCR has expertise in advocating for immigrants’ rights and has close contact with client communities who will be deeply affected by a decision in
the instant case.
The Refugee and Immigrant Center for Education and Legal Services (RAICES) is a BIArecognized, non-profit, legal services agency with
eleven offices throughout Texas. RAICES envisions
a compassionate society where all people have the
right to migrate and human rights are guaranteed.

5a
RAICES defends the rights of immigrants and refugees, empowers individuals, families, and communities, and advocates for liberty and justice. In 2019,
RAICES closed nearly 29,000 cases. RAICES regularly challenges faulty Notices to Appear in relevant
cases before immigration courts in Texas and the
outcome of this case will have a significant impact
on our clients and the communities that we serve.

